 SIGAR                                                  Special Inspector General for
                                                         Afghanistan Reconstruction




                                                                      SIGAR Audit 13-7




      Afghanistan’s National Power Utility: Commercialization
      Efforts Challenged by Expiring Subsidy and Poor
      USFOR-A and USAID Project Management




                                                                        APRIL
                                                                        2013
SIGAR Audit 13-7/Afghanistan’s National Power Utility
                                                                    April 2013




SIGAR
                                                                    Afghanistan’s National Power Utility: Commercialization
                                                                    Efforts Challenged by Expiring Subsidy and Poor USFOR-A
                                                                    and USAID Project Management


                                                                    SIGAR AUDIT 13-7
Special Inspector General for
Afghanistan Reconstruction                                          WHAT SIGAR FOUND
                                                                    Although USAID investments resulted in some
WHAT SIGAR REVIEWED                                                 commercialization successes for DABS-Kabul in recent years,
                                                                    it is not able to pay its bills without an Afghan government
Since 2008, the Afghan government has identified
                                                                    subsidy set to expire in 2014. For example, with the
improvements to its energy sector as a top priority,
                                                                    assistance of a $53 million project funded by USAID to assist
including increasing revenues and reducing losses from
                                                                    in the commercialization of DABS-Kabul, cash collections
power generation through distribution. Collectively, these
                                                                    increased by nearly 60 percent. However, DABS-Kabul—one of
initiatives are referred to as commercialization. Since
                                                                    the best performing electricity directorates in all of
2009, the U.S. government has obligated almost $88
                                                                    Afghanistan—is still operating at a financial loss.
million to help the Afghan government commercialize Da
Afghanistan Breshna Sherkat (DABS), its national power              Further, USFOR-A and USAID have provided nearly $88 million
utility. DABS operates and manages electric power                   to assist in the commercialization of DABS in Kabul,
generation, import, transmission, and distribution                  Kandahar, and Helmand, but poor management of
services throughout Afghanistan. U.S. government                    commercialization projects by the agencies hindered U.S.
projects funded by U.S. Forces-Afghanistan (USFOR-A) and            efforts. For example, USFOR-A approved eight Commander's
the U.S. Agency for International Development (USAID)               Emergency Response Program projects intended to help
focus on helping DABS increase cost recovery, reduce                DABS decrease losses and increase revenues from electricity
losses, and build its capacity to manage, operate, and              sold; these projects were designed to procure urgently
maintain a national power system. To date, USFOR-A and              needed electricity distribution equipment for Kandahar and
USAID have focused their efforts in Kabul, Kandahar, and            Helmand. As identified in an interim report in December
Helmand provinces, and the first objective focuses on the           2012, almost $12.8 million of the equipment purchased by
self-sufficiency of DABS-Kabul because there is a lack of           USACE-TAS—on behalf of USFOR-A—as part of Kandahar
reliable, available data for other directorates—such as             commercialization efforts was sitting unused in U.S.
data on revenues and losses. This report is the second of           government-controlled storage. SIGAR also found no clear
two reports on U.S. efforts to assist in the                        plans for the equipment’s installation. Although this
commercialization of DABS. SIGAR evaluated (1) the                  equipment approved and funded by USFOR-A arrived without
extent to which U.S. assistance contributed to DABS-                an installation plan and was placed in storage, USFOR-A
Kabul’s goal of becoming self-sufficient and (2) USFOR-A            continued to approve projects for similar equipment without
and USAID management of commercialization projects.                 an installation plan. As a result, $10.2 million of additional
                                                                    equipment for Helmand remains in storage without an
WHAT SIGAR RECOMMENDS                                               approved plan for installation.

SIGAR recommends that the Commanding General for                    Moreover, USAID's decision to approve an expanded scope of
USFOR-A Regional Command-Southwest work with DABS                   work on a sole source basis may have inappropriately limited
to finalize the installation schedule for the equipment.            competition because there may have been other technically
SIGAR also recommends that the USAID Mission Director               capable bidders. Finally, although USAID required its
for Afghanistan require that USAID-funded systems are               contractor to implement a billing system in Kandahar that
coordinated with DABS Corporate and consistent                      was consistent and coordinated with systems in Kabul, USAID
nationwide. In commenting on a draft of this report,                did not enforce these contractual requirements, allowing a
USFOR-A concurred with the recommendation. USAID also               different system to be installed in Kandahar that was later
concurred, but disagreed with some findings. The U.S.               deemed a failure by USAID and DABS. As a result, USAID
Army Corps of Engineers provided technical comments.                wasted nearly $700,000 to implement the system in
Agency comments are reproduced in appendices III and                Kandahar, which will ultimately be replaced by the same
IV.                                                                 system originally installed in Kabul.


       For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 18, 2013
General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Major General James L. Huggins
Commander, U.S. Forces-Afghanistan Regional Command-South

Major General Charles M. Gurganus
Commander, U.S. Forces-Afghanistan Regional Command-Southwest

Lieutenant General Thomas Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers

Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan


This draft report discusses the results of an audit of the U.S. government’s $88 million dollar
effort to assist in the commercialization of Afghanistan’s national power utility, Da Afghanistan
Breshna Sherkat (DABS). In general, we found that U.S. Agency for International Development
(USAID) assistance made improvements at DABS-Kabul, but an expiring Afghan government
subsidy makes the goal of realizing self-sufficiency uncertain. Additionally, poor management
by U.S. Forces-Afghanistan (USFOR-A) and USAID hampered commercialization efforts.
The report makes two recommendations: (1) that the Commanding General, USFOR-A Regional
Command-Southwest, work with stakeholders to finalize the installation schedule for $10.2
million in equipment that currently remains in storage and (2) that the USAID Mission Director
for Afghanistan require that USAID-funded systems are coordinated with DABS Corporate and
consistent nationwide.
In commenting on a draft of this report, USFOR-A concurred with our recommendation. USAID
also concurred, but disagreed with some of our findings. USFOR-A and USAID’s comments are
reproduced in appendices III and IV. The U.S. Army Corps of Engineers also provided technical
comments, which we incorporated, as appropriate. SIGAR conducted this work under the
authority of Public Law 110‐181, as amended, and the Inspector General Act of 1978, as
amended; and in accordance with generally accepted government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                 CC: The Honorable John Kerry, Secretary of State; The Honorable Chuck Hagel, Secretary of
                              Defense; The Honorable James B. Cunningham, U.S. Ambassador to
                              Afghanistan; General Lloyd J. Austin III, Commander, U.S. Central Command




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                  Page ii
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 3 
USAID Assistance Led to Improvements to DABS-Kabul but Expiring Subsidy Makes Self-sufficiency Uncertain. 7 
Poor Project Management Hampered Commercialization Efforts ............................................................................ 9 

Conclusion.................................................................................................................................................................. 14 
Recommendations .................................................................................................................................................... 14 
Agency Comments ..................................................................................................................................................... 14 

Appendix I - Scope and Methodology ....................................................................................................................... 16 
Appendix II - Losses in Energy Distribution .............................................................................................................. 17 
Appendix III - U.S. Forces–Afghanistan Comments.................................................................................................. 19 
Appendix IV - U.S. Agency for International Development Comments .................................................................... 20 
Appendix V - Acknowledgements .............................................................................................................................. 25 


TABLES

Table 1 - Short-term and Intermediate-term Commercialization Goals for Energy Sub-sector ............................... 4 
Table 2 - DABS Commercialization Projects ............................................................................................................... 5 


FIGURES

Figure 1 - DABS-Kabul Cumulative Cash Collection (in millions) .............................................................................. 7 

Figure 2 - DABS-Kabul Customers Enumerated Into Computerized Billing System (in thousands) ....................... 8 
Figure 3 - Timeline of CERP Equipment Purchases ................................................................................................. 10 
Figure 4 - Timeline of Billing Systems Purchased for Kabul and Kandahar........................................................... 13 

Figure I - Energy Flow from Generation to Distribution ............................................................................................ 17 
Figure II - Losses in the Distribution System ............................................................................................................ 18 




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                                                                 Page i
ABBREVIATIONS & ACRONYMS

             CERP                   Commander’s Emergency Response Program
             DABS                   Da Afghanistan Breshna Sherkat
             DABM                   Da Afghanistan Breshna Moassasa

             KESIP                  Kabul Electricity Services Improvement Program
             LBG/B&V                Louis Berger Group Inc/Black & Veatch Special Projects Corp Joint Venture
             PTEC                   Power Transmission Expansion and Connectivity
             TO 22                  Task Order 22
             USACE-TAS              U.S. Army Corps of Engineers–Afghanistan Engineer District South
             USAID                  U.S. Agency for International Development

             USFOR-A                U.S. Forces–Afghanistan




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                   Page 2
Since 2008, the Afghan government has identified improvements to its energy sector as a top priority and, for
that reason, has developed strategies and goals to increase its electrical sector efficiencies.1 To accomplish
these goals, the Afghan government set targets to increase revenues and reduce its losses from power
generation through distribution. Collectively, these initiatives are referred to as commercialization. In support of
these initiatives, the U.S. government has obligated almost $88 million since 2009 to help the Afghan
government commercialize its national power utility, Da Afghanistan Breshna Sherkat (DABS).2 DABS operates
and manages electric power generation, import, transmission, and distribution services throughout
Afghanistan. The U.S. government’s commercialization efforts focus on assisting DABS to increase cost
recovery, reduce losses,3 and build its capacity to manage, operate, and maintain a national power system.
U.S. Forces-Afghanistan (USFOR-A) and the U.S. Agency for International Development’s (USAID) have
implemented U.S. government commercialization efforts, and, to date, have focused their efforts in Kabul,
Kandahar, and Helmand provinces.4
The objectives of this audit were to evaluate
          the extent to which U.S. assistance contributed to the DABS-Kabul goal of becoming self-sufficient,
           and
          USFOR-A and USAID management of commercialization projects.
We conducted our audit work in Kabul and Kandahar, Afghanistan, and Washington, D.C., from July 2012 to
March 2013, in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This audit was performed by
SIGAR under the authority of Public Law 110-181, as amended, and the Inspector General Act of 1978, as
amended. A discussion of our scope and methodology is included in appendix I.


BACKGROUND

According to Afghanistan’s National Priority Program, DABS’ mission is to acquire, operate, and maintain the
equipment and systems needed to finance, generate, supply, and expand electricity to all areas of
Afghanistan.5 DABS is an independent, but still government-controlled, corporate entity created in 2009 from
Da Afghanistan Breshna Moassasa (DABM), which was the national utility within the Ministry of Energy and


1The 2008 Afghanistan National Development Strategy emphasized operational efficiency as the number one priority in the

energy sector. Developed by the Government of Afghanistan, the document lays out a 5-year plan to address major
development challenges facing the country. The Afghanistan National Development Strategy sets the following issue area
priorities: agriculture, security, education, governance, health, private sector, roads, infrastructure (energy and water), and
social protection.
2For our audit, we defined “commercialization” as U.S. government efforts to assist DABS to increase revenues, decrease
losses, and become a self-sustaining entity.
3Commercialization  includes efforts to reduce technical and commercial losses in the distribution process; throughout the
report, we use “losses” to refer to both types. Technical losses refer to differences in the amount of energy purchased by a
utility and the amount of energy consumed or stored by the utility; these losses often occur as a result of poorly maintained
or aging equipment/infrastructure and overloading. Examples of commercial (or non-technical) losses include differences
in the amount of energy consumed and the amount billed (unbilled energy), and energy billed and energy paid (unpaid
energy).
4Our first objective focuses on the self-sufficiency of DABS-Kabul because there is a lack of reliable, available data for other
directorates—such as data on revenues and losses.
5Government   of Afghanistan, National Priority Programs, Economic and Infrastructure Development Cluster, July 2010.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                   Page 3
Water.6 DABS’ headquarters (DABS Corporate) is located in Kabul and it maintains regional departments in
Kabul, Parwan, Kunduz, Balkh, Herat, Nangarhar, and Kandahar provinces, as well as 10 sub-regional offices,
including an office in Helmand. Since 2009, the U.S. government has focused its commercialization efforts
primarily in Kabul and, to a lesser extent, Kandahar and Helmand.
The goal of commercialization is to create an independently sustainable national power utility. A December
2008 World Bank7 report states that because investments made in Afghanistan’s energy sector through 2008
focused primarily on emergency rehabilitation to meet basic needs, it was unreasonable to expect that
resources had been efficiently utilized.8 Since 2008, however, the Afghan government has developed
strategies and set goals to improve the energy sector. The 2008 Afghanistan National Development Strategy
Energy Sub-sector Strategy emphasized operational efficiency as the number one priority and identified
commercialization, investments in transmission and distribution, and repair and maintenance of all power
assets as areas for improvements.9 As illustrated in table 1, short-term goals for the energy sub-sector include
reducing technical losses to 27.5 percent and increasing revenue collections to 70 percent between 2010 and
2013. For 2013 through 2018, the goal is to further reduce technical losses to 20 percent and increase
revenue collection to 85 percent.


Table 1 - Short-term and Intermediate-term Commercialization Goals for Energy Sub-sector
                                                    Short-Terma                              Intermediate-Term
              Issue
                                                   (2010-2013)                                  (2013-2018)

Corporate Governance            DABM operating on commercial basis; some areas         Management Contract for
                                in private hands                                       DABM (in whole or in parts)

Technical Losses                27.5%                                                  20%

Collections                     70% collection to billedb                              85% collection to billed

DABM Commercialization          Complete commercialization; improve metering,          Unbundle & privatizec
                                billing & collection; implement management
                                performance contract

Source: SIGAR analysis of Afghanistan National Development Strategy, Energy Sector Strategy, February 2008.
Notes:
aThe goals for the energy subsector were established in 2008, one year before DABS replaced DABM as Afghanistan’s

national power utility.
 bCollection to billed refers to energy revenue collections compared to energy billed to customers.
cAccording to the Afghanistan National Development Strategy, unbundling is the separation of the utility into different

operating units and privatization by sale of one or more of those units.



6DABS   replaced DABM as the national power utility; DABM is no longer an entity within the Ministry of Energy and Water.
7The World Bank awarded a contract to MVV Consulting in October 2005 to assist in the restructuring of DABM—the
national utility within the Ministry of Energy and Water—and to legally establish DABS as an independent, but still
government-controlled, corporate entity. The project was completed on December 15, 2008.
8Technical Assistance for Restructuring and Commercialization of Da Afghan Breshna Moassassa, Completion Report,
Volume I – Main Report, MVV Consulting, December 7, 2008.
9The  Afghanistan National Development Strategy is a five-year strategy document developed by the Government of
Afghanistan to address major development challenges facing Afghanistan. The Afghanistan National Development Strategy
sets the following issue area priorities: agriculture, security, education, governance, health, private sector, roads, and
infrastructure (energy and water) and social protection.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                 Page 4
To help DABS achieve these goals, the U.S. government has obligated nearly $88 million on commercialization
projects since September 2009.10 Of this amount, the USAID obligated almost $61 million in Economic
Support Funds on two contract task orders and one grant for commercialization efforts in Kabul and
Kandahar.11 For Kabul-based efforts, USAID awarded a $53 million dollar task order to support
commercialization of DABS-Kabul through the Kabul Electricity Services Improvement Project (KESIP)12 and a
grant to Etisalat for more than $670,000 to support DABS-Kabul’s revenue collections via mobile bill
payment.13 For Kandahar-based efforts, USAID awarded Task Order 22 (TO 22) to Louis Berger Group
Inc/Black & Veatch Special Projects Corp Joint Venture (LBG/B&V) for more than $6.8 million to support
various commercialization activities—such as developing a customer meter installation plan, installing
boundary meters, and performing baseline studies related to revenues and losses—for DABS-Kandahar.
These three commercialization projects have been completed and USAID is not currently funding any
commercialization projects in Afghanistan. However, USAID plans to provide $157 million to DABS in direct
assistance between 2013 and 2016—as part of its 3-year $814 million Power Transmission Expansion and
Connectivity (PTEC) program—to assist in commercialization and capacity building. According to USAID officials,
KESIP will be used as a model under the PTEC project to build on achievements in Kabul and apply them to
other regions of Afghanistan. The Electricity Commercialization Program under PTEC will be a 3-year program
that will include continued commercialization activities in Kabul and Kandahar, and begin activities in
Jalalabad, Mazar-e Sharif, and Herat.
In addition to USAID commercialization projects, USFOR-A has obligated $27.3 million in Commander’s
Emergency Response Program (CERP) funds to purchase equipment needed to rebuild, repair, and expand
current electrical distribution grids for areas in Kandahar and Helmand. The U.S. Army Corps of Engineers-
Afghanistan Engineer District South (USACE-TAS) implements these projects for USFOR-A. Table 2 shows the
three completed USAID commercialization projects funded by the Economic Support Fund and the eight
USFOR-A commercialization projects funded with CERP.

Table 2 - DABS Commercialization Projects
Funding                                      Location                                      Period of             Obligated
                        Project                                  Description
Agency                                      (Province)                                    Performance             Amount

USAID           KESIP                     Kabul           Commercialization              5/5/2009-            $53,025,290
                                                          activities                     3/31/12


USAID           Kandahar                  Kandahar                                       5/10/09-             $6,875,436
                Commercialization                                                        12/31/11
                (Task Order 22)a




10Not all contracts discussed in this report have been closed out and invoices are still being paid. Therefore, to ensure
consistency in language we only identify dollars obligated by each agency for each project, rather than total dollars spent.
11The Economic Support Fund promotes the economic and political foreign policy interests of the United States by providing

assistance to allies and countries in transition to democracy, supporting the Middle East peace negotiations, and financing
economic stabilization programs, frequently in a multi-donor context. USAID, with overall foreign policy guidance from the
Department of State, implements most Economic Support Fund programs.
12Tetra   Tech ES, Inc. (Tetra Tech) performed the work required under KESIP.
13Etisalat   is a telecommunications company with operations in many countries throughout the world, including Afghanistan.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                  Page 5
Table 2 - DABS Commercialization Projects
Funding                                    Location                                        Period of            Obligated
                      Project                                    Description
Agency                                    (Province)                                      Performance            Amount

USAID        Etisalat Afghanistan        Kabulb           Support Etisalat in mobile    12/1/11-              $676,110
                                                          electricity bill payment      12/31/12

USFOR-A      Kandahar City Starter       Kandahar         The near term increase        8/13/10-              $7,446,712c
             Kit 1                                        and improved reliability of   3/25/12
                                                          electrical power in the
             Kandahar City Starter                        Kandahar area.                7/20/11-
             Kit 2                                                                      3/19/12

USFOR-A      Pashmul Completion          Kandahar         Purchase materials for        9/29/11-              $2,843,564c
             Kits                                         new digital, individual       11/30/12
                                                          metered connections to
                                                          homes and businesses.

USFOR-A      Maiwand Completion          Kandahar         Purchase materials for        9/29/11-              $2,704,128c
             Kits                                         new digital, individual       11/30/12
                                                          metered connections to
USFOR-A      Spin Boldak Completion      Kandahar                                                             $3,232,527c
                                                          homes and businesses.
             Kits

USFOR-A      Sangin Completion Kits      Helmand                                        9/28/11-              $2,843,564c
                                                                                        12/30/12
USFOR-A      Musa Qa’leh                 Helmand                                                              $2,704,128c
             Completion Kits

USFOR-A      Hyderabad Completion        Helmand                                                              $2,704,128c
             Kits

USFOR-A      Tangi Completion Kits       Helmand                                                              $2,843,564c

Total                                                                                                         $87,899,151
Source: SIGAR analysis of USFOR-A, USACE-TAS, and USAID data.
Notes:
 aThe initial task order scope of work cites providing technical assistance, training, and contract advisory support to DABS-

Corporate. Modification 1 to the Task Order changed the scope of work to providing technical assistance to DABS-
Kandahar.
bThe initial grant cites supporting Etisalat in mobile electricity bill payment in Kandahar. Modification 1 to the grant

changed the implementation area from Kandahar to Kabul.
cRepresents amount of CERP funds transferred from USFOR-A to USACE-TAS through a Military Interdepartmental Purchase

Request (MIPR), rather than amount obligated to the contracts by USACE-TAS.


In the course of fieldwork for this audit, we identified two issues that warranted immediate attention. First, we
identified in an earlier report that almost $12.8 million of the equipment purchased by USACE-TAS, for USFOR-
A, as part of Kandahar commercialization efforts was sitting unused in U.S. government controlled storage. We
also found no clear plans for the equipment’s installation. Additionally, we found that USAID paid a contractor
the full allowable fee on a task order, despite the contractor’s failure to complete 26 of the 34 required




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                 Page 6
deliverables. As a result, we issued an interim report in December 2012 notifying USFOR-A Commanders, and
the USAID Mission Director for Afghanistan of our findings.14 In that report, we recommended that USFOR-A
determine whether $12.8 million of equipment procured for Kandahar can and should be installed in
Kandahar. If so, we recommended that USFOR-A develop a plan for the equipment’s installation. If not, we
recommended that USFOR-A should determine other uses for the equipment. We also recommended that
USAID complete a comprehensive assessment of task order deliverables and contractor performance and,
using results of this assessment, negotiate the appropriate fixed fee and seek reimbursement for any fee paid
in excess of the negotiated amount. Both USFOR-A and USAID concurred with our recommendations and are
taking steps to address them.

Additionally, in the course of our work we brought an issue to USACE-TAS’ attention which resulted in the return
of more than $1 million in unspent funds to USFOR-A. USFOR-A transferred approximately $7.4 million in CERP
funds to USACE-TAS to buy equipment needed for a project in Kandahar. USFOR-A used a Military
Interdepartmental Purchase Request15 to transfer the funds to USACE-TAS. However, the final invoice for the
project from the contractor showed that USACE-TAS only paid approximately $6.2 million for the equipment.
We brought this to USACE-TAS’ attention and, as a result, it returned $1.16 million to USFOR-A on December
20, 2012. In addition to the $1.16 million already
returned, up to an additional $3.14 million for 7 remaining
projects in other areas of Kandahar and Helmand may be          Figure 1 - DABS-Kabul Cumulative Cash
returned to USFOR-A because USACE-TAS did not require           Collection (in millions)
the funds to complete the remaining projects. USACE-TAS
officials indicated that they are waiting to pay final
invoices before returning these funds.


USAID ASSISTANCE LED TO
IMPROVEMENTS TO DABS-KABUL BUT
EXPIRING SUBSIDY MAKES SELF-
SUFFICIENCY UNCERTAIN

USAID assistance to DABS-Kabul helped the directorate
reduce its losses and increase revenues, yet DABS-Kabul
still cannot sustain itself without an Afghan government
subsidy set to expire in 2014. Indeed, USAID’s efforts to
commercialize DABS-Kabul—through the $53 million
KESIP—improved revenue collection by nearly 60 percent,
from approximately $56 million to nearly $89 million.
Figure 1 shows the annual increase in cumulative cash
collections from March 2009 to March 2012.                          Source: SIGAR analysis of Kabul Electricity Service
                                                                    Improvement Program Final Report, Tetra Tech ES,
Tetra Tech—the contractor for KESIP—coordinated the                 Inc, June 1, 2012
installation of approximately 50,000 customer meters


14SIGAR 13-2, Afghanistan's National Power Utility: $12.8 Million in DOD-Purchased Equipment Sits Unused and USAID
Paid a Contractor for Incomplete Work, December 2012.
15A Military Interdepartmental Purchase Request is used by a requesting agency, in this case USFOR-A, to place an order
for supplies or non-personal services with a servicing agency, in this case USACE-TAS. Two kinds of Military
Interdepartmental Purchase Requests are available, Category I and II. All eight of the CERP projects approved to purchase
electrical equipment are in Category I.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                              Page 7
used for billing energy use, and worked with DABS-Kabul to design and implement a program to enumerate
DABS-Kabul customers into a computerized billing system. As shown in Figure 2, from May 2010 to June 2012,
DABS-Kabul increased the number of enumerated customers to a total of 270,000.


             Figure 2 - DABS-Kabul Customers Enumerated Into Computerized Billing System (in
             thousands)




             Source: SIGAR analysis of KESIP monthly reports, quarterly reports, and final report


Despite these improvements, data shows that DABS-Kabul is not a self-sufficient power utility. For example, a
preliminary financial statement developed for DABS-Kabul showed that the directorate operated at a financial
loss; however, as a result of the Afghan government subsidy, DABS-Kabul’s financial statement shows a
positive cash flow.16 The financial statement states that the subsidy is scheduled to expire at the end of March
2014, and without the subsidy, DABS-Kabul will be unable to pay its bills.17
In response to a draft of this report, USAID stated that phasing out fuel subsidies was part of the agreement
between the Ministry of Finance and DABS from DABS’s inception and has been a part of its operational
planning process. To fill the revenue gap left by the planned reduction in subsidies, USAID also stated that
increasing customer rates for energy consumption as well as further decreasing losses will eventually bring
revenue in line with operational costs. While such efforts may result in revenue/cost alignment, whether they
occur in time to offset the expiring subsidy remains questionable.




16TetraTech completed this assessment in January 2012, and notes that the financial statement was an internal exercise,
and that DABS was not yet at a stage where it was ready to prepare ‘pro forma’ financials.
17The   Government of Afghanistan’s 1390 budget cites $63.4 million allocated to DABS.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                            Page 8
Further, DABS-Kabul’s technical and commercial losses remain at about 38 percent. According to a USAID
energy sector specialist, losses by a utility exceeding 20 percent indicate problems such as theft and lack of
funds for maintenance. Similarly, a report prepared for the World Bank links losses exceeding 30 percent with
poor operational and financial performance.18


POOR PROJECT MANAGEMENT HAMPERED                                                 Donor Coordination in the
COMMERCIALIZATION EFFORTS                                                        Afghanistan Energy Sector

                                                                                 The Inter-Ministerial Commission
Poor project management by USFOR-A and USAID hampered their                      on Energy was created by Afghan
efforts to help commercialize DABS in Helmand, Kandahar and                      presidential decree in November
Kabul. Specifically, USFOR-A purchased equipment for use in                      2006 to provide oversight for
Helmand without an installation plan, and the equipment was                      Afghanistan’s energy sector policy
placed in storage, despite its previous purchase of similar                      and infrastructure. In the
equipment—also approved without an installation plan—that was                    commission’s role of coordinating
already in storage in Kandahar. Additionally, USAID’s poor project               international support, participants
management resulted in a sole-source award that may have                         from Afghan ministries, the U.S.
inappropriately limited competition, and USAID failed to enforce a               government, the World Bank, the
key contractual requirement that resulted in almost $700,000 in                  Asian Development Bank, and
wasted funds.                                                                    other international donors met on a
                                                                                 monthly basis. Both SIGAR and the
USFOR-A Purchased $10.2 Million in Equipment                                     U.S. Government Accountability
that Remains Unused in Helmand                                                   Office found the commission to be
                                                                                 an effective coordination body and
In addition to the $61 million that USAID provided for its three                 a potential model for enhancing
commercialization projects, USFOR-A provided $27.3 million in                    U.S. reconstruction effort
CERP funds for urgently needed electricity distribution equipment,               coordination while it was active.
including starter kits and completion kits for eight projects in                 However, in mid-2012, the
Kandahar and Helmand.19 USFOR-A requested that USACE-TAS                         commission stopped meeting,
execute the contracts to purchase the equipment. USACE-TAS                       leaving energy sector coordination
procured the equipment from a contractor, Jubaili Brothers, at a                 reliant upon ad-hoc efforts. The
total cost of about $23 million. Approximately $12.8 million was                 Afghan government has requested
used to buy starter and completion kits for projects in Kandahar                 funding from the Asian
and almost $10.2 million was used to buy kits for projects in                    Development Bank to reassemble
Helmand. According to USACE-TAS, it received all of the equipment                the commission, and the Bank
for Kandahar and Helmand.                                                        anticipates providing two years of
                                                                                 funding beginning in early 2013.
While all of the equipment was delivered, it was immediately placed
in storage—and remained there, as of December 2012—because
neither USFOR-A nor DABS completed a finalized plan for installation and DABS lacked the capacity to install
and manage the equipment. USFOR-A approved the first project for Kandahar starter kits in April 2010 and
USACE-TAS awarded the first contract four months later. The contract required the equipment to arrive no later



18Reducing Technical and Non-Technical Losses in the Power Sector: Background Paper for the World Bank Group Energy

Sector Strategy, July 2009, pg 8.
19Starter kits and completion kits are made up of equipment to improve the electricity distribution infrastructure. According

to USACE-TAS officials, and based on our review of the required equipment, the two kits are virtually identical in content
and include items such as meters, transformers, poles, and trucks.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                 Page 9
    than December 2010.20 However, as we previously reported,21 neither USFOR-A nor DABS-Kandahar
    completed an installation plan prior to the purchase, and DABS-Kandahar lacked the capacity to install the
    equipment.22 As a result, the $12.8 million of equipment remains in storage at USACE-TAS’ Shorandam
    Industrial Park.23 Yet, while the starter kits sat in storage in Kandahar, USFOR-A approved seven additional
    purchases of similar equipment for Kandahar and Helmand without requiring an achievable plan for
    installation. Figure 3 shows the timeline of the continued approval of CERP projects for equipment that did not
    have an installation plan.


Figure 3 - Timeline of CERP Equipment Purchases




Source: SIGAR analysis of CERP approval documentation and USACE-TAS contract award documentation.


    Similar to what we identified in our interim report for equipment in Kandahar, none of the $10.2 million in
    equipment has been installed in Helmand, and no final installation plan exists. USACE-TAS received about 90
    percent of the equipment for Helmand and turned it over to DABS-Helmand in September 2012.24 According
    to USFOR-A officials, the Helmand Provincial Reconstruction Team is in discussion with DABS-Helmand to
    develop an installation schedule.25 The Helmand Provincial Reconstruction Team developed a draft schedule
    after the turnover of the equipment, with a more “refined” schedule expected in early 2013.26 According to
    Helmand Provincial Reconstruction Team officials, senior DABS-Helmand officials have assured USFOR-A that
    DABS-Helmand has the capability to manage and install the completion kits at their intended locations. A




    20The   contract allowed additional time - up to 240 days - for some long lead items.
    21SIGAR   13-2.
    22USAID   and Asian Development Bank officials independently verified this assessment.
    23Shorandam   Industrial Park is a U.S. facility housing a power plant supplying electricity, and is located just outside of
    Kandahar City. According to USACE, the facility will be turned over to the Government of Afghanistan in December 2014.
    SIGAR auditors and an engineer inspected the equipment in storage in September 2012. The equipment appeared to be
    well-maintained within the storage facility and USACE-TAS had a process and internal controls for approving requests and
    issuing equipment to DABS-Kandahar on an as-needed basis.
    24In its formal comments to this report, USACE-TAS stated that all of the equipment has been received and turned over to

    DABS-Helmand.
    25The Helmand Provincial Reconstruction Team is led by the United Kingdom and is supported by the United States, United

    Kingdom, Denmark, and Estonia in helping the Afghan government deliver governance and improved development across
    Helmand province. The Helmand Provincial Reconstruction Team has an embedded representative from USFOR-A that
    works directly with DABS-Helmand. 
    26According   to the draft schedule, installation was to commence in December 2012 and will be completed in March 2014.




    SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                Page 10
Memorandum of Sustainment dated June 28, 2011 between the Commander of USFOR-A Regional Command-
Southwest27 and the Director of DABS-Helmand states:
            “The Director of DABS-Helmand agrees to be responsible for the operation and maintenance of the
            Musa Qal’eh, Sangin, Hyderabad, and Tangi Completion kits. The operation and maintenance will
            begin once the Completion Kits are transferred to [DABS-Helmand] and will include staffing, routine
            maintenance, and supplies for the kits.”
However, DABS-Helmand requested training from USFOR-A and USACE-TAS to increase technical capacity
required for installation, and USFOR-A and USACE-TAS intend to provide lineman training, training on use of
completion kit vehicles, surveying, and project management.
Further, as we previously reported, the meters procured as part of the eight starter and completion kits have a
warranty of 26 months from the date of dispatch from the manufacturer.28 Given the amount of time that has
already lapsed, if the meters are found to be faulty following their eventual installation, the warranty may have
expired, potentially making it more difficult to obtain replacements from the manufacturer without incurring
additional expense.

USAID Issued a Sole Source Award that May Have Inappropriately Limited
Competition
USAID awarded TO 22 to the LBG/B&V on May 10, 200929 to provide expert technical assistance, training, and
contract advisory support to DABS Corporate in Kabul. TO 22 was initially valued at $3.4 million and had a
period of performance of May 10, 2009 to May 9, 2011. However, in August 2009, 3 months after TO 22 was
awarded, USAID’s Office of Infrastructure, Engineering, and Energy requested that the task order be expanded
and modified to include commercialization efforts in Kandahar. 30
The Federal Acquisition Regulation generally requires contracting officers to allow for full and open competition
for government acquisitions. However, both federal regulations and the USAID Acquisition Regulation allow for
some exceptions. For example, USAID allows exceptions when the contracting officer determines that full and
open competition would impair or otherwise have an adverse effect on programs conducted for the purposes
of foreign aid, relief, and rehabilitation.31 In order to use this “foreign impairment” exception and limit
competition, the contract file must include appropriate explanation and support justifying the award without
full and open competition. To justify the modification of TO 22 for the inclusion of additional commercialization
work in Kandahar without full and open competition, USAID’s Office of Infrastructure, Engineering, and Energy
prepared a Justification for Other than Full and Open Competition. The Justification cited the foreign
impairment exception and stated that the additional work for DABS-Kandahar was a direct extension of work
already underway at DABS-Kabul under TO 22. The Justification further stated that the proposed work at DABS-
Kandahar “will expand the same commercialization concepts…and will take advantage of staff and processes
that are already in place.” USAID officials in the acquisitions, program, and legal offices subsequently



27The    area of responsibility for Regional Command-Southwest is Helmand and Nimroz provinces.
28SIGAR    13-2.
29InAugust 2006, USAID awarded a 5-year, single source indefinite quantity contract with a $1.405 billion ceiling to the
LBG/B&V to implement the Infrastructure and Rehabilitation Program in Afghanistan. Between August 25, 2006 and
August 24, 2011, USAID issued 27 cost-plus-fixed fee task orders under the contract to LBG/B&V, including TO 22
(contract number 306-I-22-06-00517-00).
30This   office is now known as the Office of Economic Growth and Infrastructure.
31USAID    Acquisition Regulation 706.302-70.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                              Page 11
approved the sole source justification and expanded scope of work, allowing LBG/B&V to implement Kandahar
commercialization under Modification 1 to TO 22. As a result, the value of TO 22 increased by $940,000 to
more than $4.3 million.
Although USAID officials justified the expanded scope of work for TO 22 by stating that the work was an
extension of existing work by LBG/B&V in Kabul, an analysis of the original scope of work for TO 22 found that
it did not include Kabul commercialization support services. Rather, TO 22 originally called for expert technical
assistance and contract advisory support to DABS Corporate for the potential award of a management contract
to run DABS-Kabul.32 In fact, another contractor, Tetra Tech ES, Inc. (Tetra Tech), was actually providing Kabul
commercialization services under USAID’s KESIP at that time.33 Additionally, the USAID Justification for Other
than Full and Open Competition stated that using a sole source procurement would allow the contractor to
take advantage of staff and processes already in place; however, LBG/B&V did not have the staff in place to
immediately begin Kandahar commercialization activities. In fact, LBG/B&V did not even conduct a “kick-off”
meeting with DABS-Kandahar managers until late August 2010—a year after the modification to TO 22 that
added Kandahar commercialization activities. Similarly, although LBG/B&V hired a Task Order Manager in
early December 2010, he did not arrive in Kandahar until August 2011, 2 years after the modification.
Additionally, even when the foreign impairment exception is used, USAID requires contracting officers to seek
bids from as many potential offerors as is practicable. However, despite the existence of other potential
technically capable bidders—for reasons contained in the sole source justification discussed above—USAID did
not seek offers from these bidders, including the USAID contractor already performing commercialization
activities for DABS in Kabul. Specifically, in May 2009—only 3 months prior to the modification of TO 22 to
include Kandahar commercialization activities—USAID awarded very similar work for commercialization
activities in Kabul under an existing contract vehicle in which five contractors were allowed to compete for the
work. Two offerors responded to the solicitation, neither of which were LBG/B&V. As the Government
Accountability Office reported in July 2010, competition is a critical tool for achieving the best return on the
government’s investment.34 Although at least two other potential offerors existed, USAID officials requested
and approved Kandahar commercialization activities on a sole source basis through a modification to TO 22.

Poor Planning and USAID’s Failure to Enforce a Key Contractual Requirement
Resulted in Nearly $700,000 in Wasted Funds
A sustainable energy distribution business requires reliable and integrated billing and collection systems.
These systems are key to improving revenues, reducing costs, and ensuring accurate reporting. To assist with
the development of such systems in Afghanistan, USAID required Tetra Tech (the contractor for KESIP) to
implement billing and collection systems in Kabul, and LBG/B&V (the contractor for TO 22) to implement
“systems, procedures and management operations [that] are consistent between Kabul and Kandahar.”35
Beyond calling for consistent systems, the statements of work for KESIP and TO 22 did not specify what billing
systems should be used in either of the two provinces.




32Documentation  cited in this report often used the term 'Kabul Electricity Directorate.' However, we use 'DABS-Kabul'
throughout to convey that we are referring to the DABS regional office in Kabul.
33Although PA Government Services was originally awarded the contract, a Novation Agreement changed the contractor to
Tetra Tech in November 2010.
34U.S. Government Accountability Office, GAO 10-833, Opportunities Exist to Increase Competition and Assess Reasons

When Only One Offer is Received, July 2010.
35This requirement was deleted in Modification 3. However, Modification 3 was signed in October 2011, only 2 months

before the end of the task order.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                               Page 12
Despite the requirement that billing systems be consistent between the two projects, Tetra Tech and LBG/B&V
installed inconsistent systems in Kabul and Kandahar. Shortly after USAID awarded TO 22, LBG/B&V informed
USAID that an existing Farsi-language system,36 the “Pooyesh” billing system,37 had most of the basic
functionality needed in a billing and collection system and that the system could improve short-term billing and
collection efforts and possibly longer-term improvements with minimum programming effort. Based on these
statements, LBG/B&V advised USAID that the Pooyesh system should be used in Kandahar.38 Subsequently,
USAID funded the purchase of the equipment, and LBG/B&V installed the Pooyesh system in Kandahar.39
At the same time, Tetra Tech had purchased and began implementing a different billing system, “mPower,” for
DABS-Kabul. According to Tetra Tech officials, they recommended that LBG/B&V use the same system in
Kandahar that was already purchased and being installed in Kabul. However, USAID and LBG/B&V decided not
to implement mPower in Kandahar despite the recommendation and the contractual requirement that all new
systems implemented in Kandahar be coordinated with Kabul.
After installing the Pooyesh system in Kandahar, LBG/B&V and USAID later found the billing system to be
inadequate, antiquated, and incompatible with other billing systems. The subcontractor responsible for the
installation of the Pooyesh system recommended replacing it and developing an entirely new system. USAID
approved the replacement and the subcontractor ultimately began development and installation of a new
system, called the “eBreshna,” in August 2011, at a cost of more than $690,000.40 However, USAID officials
stated that the eBreshna system was never fully developed, and officials from DABS Corporate also highlighted
problems with the eBreshna system in Kandahar, while touting the success of the mPower system in Kabul.
Figure 4 shows the timeline of the purchase of billing systems in Kabul and Kandahar under KESIP and TO 22.

Figure 4 - Timeline of Billing Systems Purchased for Kabul and Kandahar




Source: SIGAR analysis of KESIP and TO 22 contract documentation and USAID planning documentation.



36The two official languages of Afghanistan are Dari and Pashto; Farsi is the official language spoken in Iran. Pashto is

spoken by approximately 50 percent of the Afghan population, most of whom are concentrated in southern and eastern
Afghanistan, including Kandahar. Because Pooyesh is Iranian-based software, it utilizes a Farsi interface that is not
compatible with the Pashto-speaking south.
37Pooyesh, a billing and applications system written in Farsi, was in limited use by DABS in Afghanistan, but was not used in

Kandahar.
38Priorto 2011, the billing and collection system for DABS-Kandahar was not automated and billing and collection
functions were manually performed. Under this paper based system, meter readers would log a reading into a customer log
book, who would then take the log book to the bank to pay the bill to a DABS envoy, who would then issue a receipt.
39LBG/B&V   awarded a subcontract in February 2011 to assist with the required improvements to the Pooyesh system.
40$627,500   for the subcontract plus $62,775 for the General & Administrative (G&A) and fee.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                               Page 13
Because USAID did not enforce contractual requirements for the development and installation of consistent
billing systems across locations, and more than 2 years after the mPower system was purchased for use in
Kabul, USAID now plans to implement the mPower system in Kandahar under the PTEC program in fiscal year
2013. These actions resulted in the waste of nearly $700,000 and delayed improvements that are critical to
DABS becoming a self-sufficient entity. USAID also plans to implement the mPower system in Herat, Kunduz,
Balkh, and Nangarhar Provinces as part of PTEC.


CONCLUSION

Since replacing DABM in 2009, DABS has made significant commercialization progress through increased
revenues and decreased losses, particularly in Kabul as a result of USAID’s $53 million KESIP assistance.
However, despite these gains, even DABS-Kabul—one of the highest performing provinces—cannot sustain
itself without an annual Afghan government subsidy, set to expire in 2014. To achieve self-sufficiency, DABS
must build on the gains made by DABS-Kabul under KESIP and expand successful and standardized
commercialization efforts to other key areas. USFOR-A and USAID have executed projects and programs to
assist DABS in areas outside of Kabul, but so far those efforts have been marred by a lack of planning and
poor contract management that resulted in wasted U.S. funds. If the U.S. government follows through on its
plan to invest an additional $157 million in DABS commercialization efforts nationwide through its PTEC
program—in addition to the hundreds of millions it plans to spend over the next several years to build critical
energy sector infrastructure—it must ensure proper planning, decision making, and management when
implementing efforts and that U.S. funds are effectively contributing to the creation of a self-sufficient DABS.


RECOMMENDATIONS

To ensure that purchased electrical equipment will be used to repair and expand electrical distribution grids,
we recommend that the Commanding General for USFOR-A Regional Command-Southwest
    1. work with DABS to finalize the installation schedule for the Helmand equipment, within the warranty
       period, if possible.
This recommendation should be performed in coordination with USACE-TAS and the Helmand Provincial
Reconstruction Team.
To ensure that U.S.-funded billing systems are consistent across Afghanistan, we recommend that the USAID
Mission Director for Afghanistan

    2. require that any system funded by the PTEC program is coordinated with DABS Corporate and
       consistent nationwide, wherever possible.


AGENCY COMMENTS

We received written comments on a draft of this report from USFOR-A, USAID, and USACE and made revisions
to the report, as appropriate.
USFOR-A concurred with our recommendation that it should work with DABS to finalize the installation
schedule for the Helmand equipment within the warranty period. USFOR-A described the actions it is taking or
plans to take to address the recommendation. USFOR-A’s comments are presented in appendix III.
In commenting on the draft of this report, USAID disagreed with several of our statements. Most notably, USAID
disagreed with our statement that DABS-Kabul self-sufficiency is uncertain because of expiring subsidies.
USAID stated that phasing out the subsidies was part of the agreement with the Ministry of Finance and DABS


SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                     Page 14
from inception, and removing the subsidies in favor of commercial viability is the goal of its partnership with
DABS. To fill the revenue gap left by the planned reduction in subsidies, USAID also stated that increasing
customer rates for energy consumption as well as further decreasing losses will eventually bring revenue in
line with operational costs. While such efforts may result in revenue/costs alignment, we question whether
those positive results can occur before the subsidies expire in 2014 and, therefore, believe that our finding
that the self-sufficiency of DABS is questionable remains valid.
USAID concurred with our recommendation that it should require any system funded by the PTEC program to
be coordinated with DABS Corporate and consistent nationwide. USAID provided a copy of the “Request for
Proposal” for DABS commercialization, which stated that mPower will be the billing system used as USAID
expands commercialization efforts into Herat, Kandahar, Nangarhar, and Balkh. With appropriate contract
management and USAID’s assurance that any additional expansion includes similar requirements, USAID’s
actions will meet the intent of our recommendation.
USAID’s comments and our responses are presented in appendix IV.
We also considered technical comments provided by the U.S. Army Corps of Engineers when finalizing the
report, which we incorporated, as appropriate.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                     Page 15
APPENDIX I - SCOPE AND METHODOLOGY

In July 2012, the Special Inspector General for Afghanistan Reconstruction (SIGAR) initiated an audit of U.S.
government efforts to assist in the commercialization of Da Afghanistan Breshna Sherkat (DABS). Specifically,
SIGAR evaluated (1) the extent to which U.S. assistance contributed to DABS-Kabul’s goal of becoming self-
sufficient and (2) USFOR-A and USAID management of commercialization projects. SIGAR issued an interim
report in December 2012 to highlight issues related to DABS commercialization requiring immediate
consideration prior to issuing this final audit report on the results of SIGAR’s review.
To evaluate the extent to which U.S. assistance contributed to DABS-Kabul’s goal of becoming self sufficient,
we reviewed contract documentation and contractor deliverables for the Kabul Electricity Services
Improvement Program (KESIP) and the Afghanistan National Development Strategy.
To evaluate USFOR-A and USAID management of commercialization projects, we reviewed relevant guidance,
including the Federal Acquisition Regulation and the current Money as a Weapon System Afghanistan, dated
March 2012. We reviewed contract documentation and disbursement and obligation data for KESIP, Task
Order 22 (TO 22), and the eight Commander’s Emergency Response Program (CERP) projects. We performed
data reliability tests to determine the accuracy and completeness of the computer-processed data in the report
by comparing CERP project files to Military Interdepartmental Purchase Request data provided by U.S. Forces-
Afghanistan (USFOR-A) and U.S. Army Corps of Engineers-Afghanistan Engineer District South (USACE-TAS). We
also compared U.S. Agency for International Development (USAID) disbursement and obligation data to TO 22
and KESIP contract and modification documentation. We determined that the data were sufficiently reliable for
the purposes of the audit objectives. We reviewed USFOR-A’s internal controls over CERP project files to
determine whether CERP project documentation in the Combined Information Data Network Exchange
database was complete. We reviewed documents in the period between July 2012 and January 2013.
For both objectives, we interviewed officials at USAID Offices of Financial Management, Acquisition and
Assistance, Economic Growth and Infrastructure, and Program and Project Development; Department of
Defense Offices USFOR-A J9, USFOR-A J8, USFOR-A Regional Command-South, USFOR-A Regional Command-
Southwest, USFOR-A Inspector General, and USACE-TAS. We also interviewed representatives from the World
Bank, the Asian Development Bank, DABS Corporate, Tetra Tech ES, Inc., and current and former in-country
Louis Berger Group Inc./Black & Veatch Special Projects Corp staff. We also viewed the equipment purchased
by USACE-TAS with USFOR-A funds stored at the Shorandam Industrial Park outside of Kandahar City.
We conducted our audit work in Kabul and Kandahar, Afghanistan, and Washington, D.C., from July 2012 to
January 2013, in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This audit was performed by
SIGAR under the authority of Public Law 110-181, as amended, and the Inspector General Act of 1978, as
amended.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                  Page 16
APPENDIX II - LOSSES IN ENERGY DISTRIBUTION

The majority of energy losses occur in the distribution phase of energy flow to customers. Figure I shows how
energy flows from generation to transmission and distribution.


       Figure I - Energy Flow from Generation to Distribution




       Source: National Energy Education Development Project (Public Domain).


Losses in the distribution of energy occur for technical and non-technical (or commercial) reasons, and utilities
must address both types simultaneously (not one or the other) to increase revenues and achieve full cost
recovery. Figure 2 demonstrates where technical and non-technical losses occur in the distribution system.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                    Page 17
Figure II - Losses in the Distribution System




Source: USAID document for the South Asia Regional Initiative for Energy




SIGAR Audit 13-7/Afghanistan’s National Power Utility                      Page 18
APPENDIX III - U.S. FORCES–AFGHANISTAN COMMENTS




                                                          HEADQUARTERS
                                                  UNITED STATES FORCES-AFGHANISTAN
                                                         KABUL. AFGHANISTAN
                                                             APO AE 09356




                USFOR-A J9                                                                   28 March 2013


                MEMORANDUM FOR Special Inspector General for Afghanistan Reconstruction (S IGAR).
                2530 Crystal Drive. Arlington. Virginia 22202-3940

                SUBJECT: SIGAR Audit 13-7, NGHA~ISTA)fS NATIONAL POWER UTILITY:
                COMMERCIALIZATIOI'- EFFORTS THREATENED BY EXPIRING SUBSIDY AND POOR
                l SFOR-A L\1\D USAID PROJECI MA0.A.GEMf::XI


                L l ' SFOR-A concurs \>ith SIGAR recommend<llion !ound on page 14 of this rcpon: ro em,ure
                that purchased electrical equipment \\ill be used to repa1r and expand electrical distribution grids.
                we recommend that the Commanding General for USFOR-A Regional Command Soutlmest
                work '"1th DABS to linalit:e the installation schedule for Ht:lmand equipment. \\ithin the
                warrant) period. if possible. !"his recommendation should be performed in coordmat1on with
                t.'SACE-T AS and the llehnand PrO\ incial Reconstruction I cam.

                2. The IJcptll} Commanding General for Support. US FOR-A. hosted a "Power Summit" on I:!
                March 2013 in Kabul to discuss USG suppon to DABS. 1\t this meeting senior executi\'cs from
                DABS discussed their cffons to achieve commercial\ iabilit) . l SAID also brictcd its plans to
                assist DABS achieve viabilit~. !'he USFOR-A Joint Program Integration Oftice (JPIO) and
                L"SACr also participated in these discussions. This is just one mstance of the ongoing ciTons ot
                LSI-OR-A and L SAID to rccrif~ this situation.

                ]_On 2 April 2013, the Deputy Commanding General of Regional Command South\~Cst will
                host a meeting of reprcs..:ntativc.::; from USFOR-A. USA! D. JPIO. and l. SACt to further explore
                ways in v..hich to rectify this situation ( uninstallcd completion kits in llelmand) and otherwise
                mJvance the commercialization of DABS.




                                                                  {!v~~~0
                                                                  COL. CA
                                                                  LSFOR-,\ J9




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                                   Page 19
APPENDIX IV - U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT COMMENTS


             ~UII




            (~ \ USAID
            ~~~./       FROM THE AMERICAN PEOPLE


                 MEMORANDUM                                                                 April 13,2013

                 TO:               John F. Sopko
                                   Special Inspector General for
                                   Afghanistan Reconstruction (SIGAR)

                 FROM:             Brooke Isham, Acting Mission Director

                 SU BJ ECT: Drafi SIGAR Report titled. ··Afghanistan·s National Power
                            Utility: Commercialization Efforts Threatened by Ex piring
                            Subsidy and Poor USFOR-A and USAID Project
                            Management·· (S IGA R Audit 13-7)

                 REFERENCE: SIGAR Transmillal email dated 03/22/20 13

                 Thank you for providing USA I D with the opportun ity to review the
                 subject draft audit report. Discussed below arc our comments on the
                 findings and rcwmmcndations in the report.

                 PART 1: USAID'S GENERAL COMMENTS ON THE DRAFT
                 REPORT

                In lo ur years. DA f3S has achieved impressive progress in both capacity
                and revenue generation leading to sc lf~s u sta inabi l ity . DABS increased
                revenues by 68% bet ween 20 I0 and 20 12 and reduced electricity losses
                in Kabu l !rom 60% to below 35%. These improvements. along with an
                adjustment in tariff rates, have increased DABS collected revenue from
                $ 137 mi llion in 20 10 to $204 million in 201 2. This represents hundreds
                or millions or do llars saved in subsidies from us taxpayers and other
                donors - a remarkable achievement and impressive return on investment.
                It also represents a major step towards sustainability and full Afghan
                financing of their energy system. Continuing at this rate. and with
                appropriate continued support. DABS cou ld reach commercial viability in
                three years.

                Therefore. USA ID strenuously objects to the title of this audit and a                      SIGAR
                                                                                                            Comment 1
                number of its find ings. As we demonstrate below, DABs· success in
                commercial ization is tied to. rather than threatened by expiring subsidy,
                and is a direct result of USA I D"s successful program management.

                                                           Tel 202·216·6288/ 0700·108·001
                U 5 Agency for International Development   Ema•l kabulusa•d•nformm•on@usald gov
                Great Massoud Road                         h!!p Uamhamslan usa1d goy
                Kabul. Afghamstan




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                               Page 20
                                                        2



                  Indeed, removing subsidy in favor of commercial viability is precisely the
                  goal of our partnership with DABS. The establishment of a national
                  utility and its continued progress toward fuiJ commercial viability within
                  a few years would be viewed as a success story in any nation in which
                  USAID works. That DABS has followed this trajectory in Afghanistan is
                  particularly striking, given the well documented challenges USAID, other
                  donors, and Afghan officials face.

                  The report fails to accurately assess its first objective: "evaluate the     SIGAR
                  extent to which US. Assistance contributed to DABS-Kabul goal of             Comment 2

                  becoming self-sufficient. " Through Kabul Electrical Services
                  Improvement Project (KESIP), USAID sought to help Kabul Electricity
                  Directorate (KED)-- DABS' Kabul branch, calJed "DABS Kabul" in the
                  SIGAR report -- improve its commercial operations so it could become a
                  key part of a larger, commercially viable DABS.

                  KED is the largest single unit in DABS and accounted for 55% of overall      SIGAR
                                                                                               Comment 3
                  DABS cash collections from electricity sales in fiscal year ending in
                  March 2012. It has shown solid commerciaiization improvement and in
                  2012 had a colJection rate over 85%, far exceeding the level of
                  accomplishment laid out in the strategy referenced in the SIGAR report.
                  The goal of this three year program was never full self-sufficiency, and     SIGAR
                  KESIP's goal was successfully achieved. As a result, the report's            Comment 4

                  assertion that KED is overly reliant on Afghanistan government subsidy
                  to pay its bills is unsupported.

                  DABS already has demonstrated its growing capacity to manage projects.
                  It has been working with the ADB's Program Management Unit within
                  DABS to manage a transmission line project. In 2012, DABS used its
                  own funds to finance and manage $14.3 million of improvements to
                  distribution systems in Uruzgan, Ghazni, and Kabul; upgrade of the
                  transmission line from Sar-e-pul to Sheberghan, and procure 200,000
                  digital meters.

                  As the report documents, in just four short years, KED saw significant
                  improvements in its commercial performance, in large part due to KESIP.
                  Further deepening these accomplishments and extending them to other
                  parts of DABS is key to ensuring their long-term sustainability that will
                  require them to:

                  a) Put in place corporate management and governance structures that
                     ensure effective technical, financial, and investment planning to




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                            Page 21
                     expand and extend the system and improve quality of service to
                     customers;
                  b) Continue to reduce losses and improve metering, billing and
                     collections to increase commercial performance toward international
                     best practice; and
                  c) Ensure that tariffs are adjusted to reflect full cost recovery, so
                     improved commercial performance will ensure the financial resources
                     required to support the planned investments in physical and human
                     resources to increase supply and improve quality of service.

                  All of these priorities will be addressed in the course of implementing
                  USAID's upcoming on-budget commercialization and capacity-building
                  activity, a component of the larger Power Transmission Expansion and
                  Connectivity (PTEC) project over the next three to four years.

                  Changing tariff rates is a gradual process that relies on economic analysis,
                  political will, and public education. DABS did adjust the current multi-
                  tiered tariff rate structure for 20 12, a change that has led to a I 0%
                  increase in the weighted average charge per kWh billed to 10.8 cents.
                  Ongoing and planned efforts focus exactly on this challenge, as DABS
                  develops a full and accurate accounting of all its assets, including those
                  received from the Ministry of Energy and Water.

                  USAID agrees that DABS faces significant challenges to ensure long-
                  term sustainability as a modem, effective public electric utility.
                  Nevertheless, it has made significant strides in addressing the complex set
                  of challenges inherent in defining and ensuring that sustainability. The
                  next stage ofUSAID assistance-- the planned $157 million on-budget
                  DABS commercialization and corporate capacity component of the PTEC
                  program -- has been designed in close collaboration with DABS to
                  continue fostering the creation of a self-sufficient organization.

                  A key feature ofUSAID's on-budget assistance approach is the direct
                  link between DABS corporate governance and the conditions of
                  assistance. Effective corporate governance is essential to addressing
                  problems of weak corporate management systems, high losses, low
                  revenues and widespread corruption in the sector identified in earlier
                  years and is crucial to sustainability.

                  USAID's assistance to DABS (though KESIP) ended in April 2012, but
                  their management consistently and effectively has continued to
                  implement and extend the improved commercial operations initiated
                  under that program. This development resulted in a 61% increase in




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                            Page 22
SIGAR Audit 13-7/Afghanistan’s National Power Utility   Page 23
                            SIGAR Response to USAID Comments of April 13, 2013
    1. In response to USAID’s comments, we revised the title of the report to more accurately reflect the
       challenges associated with making DABS self-sufficient. As noted in the report, DABS must continue
       and expand the gains it made in Kabul as a result of USAID’s $53 million commercialization efforts.
       Further, as identified in multiple USFOR-A and USAID documents, to reach financial viability DABS will
       require continued support for reconstruction at a cost of well over a billion dollars in U.S. energy-sector
       assistance (including USAID’s planned PTEC work and projects under the Afghanistan Infrastructure
       Program funded by the Afghanistan Infrastructure Fund).
    2. We disagree. Pages 7-9 of the report evaluate the extent to which USAID’s commercialization efforts in
       Kabul assisted DABS-Kabul increase revenues, decrease losses, and become self-sufficient.
    3. USAID’s memorandum mischaracterizes the data in our report. The report gives credit to USAID for
       assisting DABS-Kabul in increasing its revenues by nearly 60 percent and reducing its technical and
       commercial losses to 38 percent; the report does not discuss collection rates in the same manner as
       the USAID memorandum.
    4. USAID’s comments to the draft of the report mischaracterize the objectives and expectations for
       KESIP. The contract between USAID and Tetratech for KESIP clearly states, “The purpose of the
       Commercialization Contract is to reduce electricity losses in Kabul, and to rebuild KED’s technical,
       commercial and human resource systems. At the end of the Commercialization Contract, KED is
       expected to be able to operate on a full cost recovery basis.”
    5. The pro forma income statement does not support USAID’s assertion that DABS-Kabul [KED] did not
       receive a subsidy. In fact, the pro forma clearly states that DABS-Kabul received 37 percent of DABS’
       1,500,000,000 Afs per year subsidy—more than $2.9 million in the first quarter of solar year 1390
       alone. Additionally, the contractor that developed the statement provided an explanation that painted
       a dire picture for the future of DABS-Kabul. According to the contractor, the cash flow situation is
       “serious” and “headed in the wrong direction,” and DABS-Kabul will be “unable to pay its bills” as
       subsidies are phased out.
    6. With appropriate contract management, and USAID’s assurance that any additional expansion
       includes similar requirements, USAID’s actions will meet the intent of our recommendation.




SIGAR Audit 13-7/Afghanistan’s National Power Utility                                                     Page 24
APPENDIX V - ACKNOWLEDGEMENTS

Matthew Dove, Senior Audit Manager
Tara Dawn Chapman, Analyst-in-Charge
Farhat Popal, Senior Program Analyst
Neha Desai, Program Analyst




SIGAR Audit 13-7/Afghanistan’s National Power Utility   Page 25
                                        This audit report was conducted  
                                        under project code SIGAR‐063A.  




SIGAR Audit 13-7/Afghanistan’s National Power Utility                       Page 26
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
